WAIVER
SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

JUL 2 9 2021
OFFICE OF THE CLERK

No. 21-5034
K.E.K.

Waupaca County, Wisconsin
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Diane L. Meulemans

Date:

7/23/21

Digitally signed by Diane L. Meulemans
`Date: 2021.07.23 08:41:44 -0500'

(Type or print) Name Diane L. Meulemans
0 Mr.
Firm

Waupaca County

Address

811 Harding Street

City & State

Waupaca WI

Phone

715-258-6446

Ms.

0 Mrs.

0 Miss

Zip 54981
Email diane.meulemans@co.waupaca.wi.us

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Ms. Colleen D. Ball
cc:

RECEIVED
AUG - 9 2321
uf-PtCE OF THE .CLERK
SUPREME COURT, U.S.

